No. 20-1735

In the Supreme Court of the United States
ÁNGEL MANUEL ORTIZ-DÍAZ, ET AL.,
PETITIONERS,
v.
UNITED STATES, ET AL.,
RESPONDENTS.

On Petition for Writ of Certiorari to the
U.S. Court of Appeals for the First Circuit
BRIEF FOR THE CATO INSTITUTE,
NATIONAL RIGHT TO WORK LEGAL DEFENSE
FOUNDATION, AND PROF. RANDY BARNETT AS
AMICI CURIAE IN SUPPORT OF PETITIONERS
Raymond L. LaJeunesse, Jr.
Frank D. Garrison
NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUND.
8001 Braddock Rd., Ste 600
Springfield, VA 22160
(703) 321-8510
rjl@nrtw.org
Randy Barnett
GEORGETOWN U. LAW CTR.
600 N.J. Ave., NW
Washington, DC 20001
(202) 662-9936
rb325@law.georgetown.edu

Ilya Shapiro
Counsel of Record
Trevor Burrus
Stacy Hanson
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

July 15, 2021

i
QUESTION PRESENTED
Under the “substantial effects” test, does the
Commerce Clause, in conjunction with the
Necessary and Proper Clause, allow Congress to
reach wholly intrastate activity with no relation to
any fungible commodity in an interstate market?

ii
TABLE OF CONTENTS

Page
QUESTION PRESENTED .......................................... i
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICI CURIAE ................................ 1
SUMMARY OF ARGUMENT .................................... 2
ARGUMENT ............................................................... 4
I. THE COURT’S REVIEW IS WARRANTED
TO RESTORE PROPER LIMITS TO THE
COMMERCE CLAUSE THAT HAVE BEEN
REMOVED BY THE SUBSTANTIAL
EFFECTS TEST .................................................... 4
A. The Original Meaning of the Commerce
Clause Was Far Narrower Than Current
Doctrine ............................................................ 6
B. The Necessary and Proper Clause Places
Meaningful and Judicially Enforceable
Limits on Congressional Power ..................... 11
II. PROHIBITING COCKFIGHTING, AN
INTRASTATE ACTIVITY WITH NO
RELATION TO ANY INTERSTATE
MARKET, EXCEEDS THE SCOPE OF THE
NECESSARY AND PROPER CLAUSE ............. 18
A. The “Substantial Effects” Doctrine Applies
the Necessary and Proper Clause to the
Commerce Clause and Allows Congress to
Use Its Regulatory Authority While
Cabining that Authority. ............................... 18
B. As an Intrastate, Noneconomic Activity,
Cockfighting Is Not Regulatable by the
Commerce Clause through the Necessary
and Proper Clause.......................................... 22
CONCLUSION ......................................................... 25

iii
TABLE OF AUTHORITIES
Page(s)
Cases
Carter v. Carter Coal Co., 298 U.S. 238 (1936)........... 9
Gibbons v. Ogden, 22 U.S. 1 (1824)........................... 10
Gonzalez v. Raich, 545 U.S. 1 (2005) ........ 3, 18, 19, 23
Katzenbach v. McClung, 379 U.S. 294 (1964)........... 19
McCulloch v. Maryland, 17 U.S. 316 (1819) ............. 16
Nat’l Fed’n of Indep. Bus. v. Sebelius,
567 U.S. 519 (2012) ................................................ 16
Shreveport Rate Cases, 234 U.S. 342 (1914) ............. 19
United States v. Coombs, 37 U.S. 72 (1838).............. 19
United States v. Darby, 312 U.S. 100 (1941) ............ 19
United States v. E.C. Knight Co.,
156 U.S. 1 (1895) ................................................ 9, 19
United States v. Lopez, 514 U.S. 549 (1995) ....... 20, 21
United States v. Morrison, 529 U.S. 598 (2000) ....... 21
United States v. Wrightwood Dairy Co.,
315 U.S. 110 (1942) ................................................ 19
Wickard v. Filburn, 317 U.S. 111 (1942) .................. 20
Constitutional Provisions
U.S. Const. art. 1, § 8, cl. 3 .......................................... 7

iv
Other Authorities
“Appendix,” in 1 William Blackstone,
Commentaries: With Notes of Reference to
the Constitution and Laws of the Federal
Government of the United States and of the
Commonwealth of Virginia (William Young
Birch & Abraham Small, eds., 1803) (1765) ......... 11
1 Annals of Congress (Joseph Gales, ed., 1789) ....... 16
1 Annals of Congress (Joseph Gales, ed., 1791) . 13, 15
Alexander Hamilton, Opinion on the
Constitutionality of a National Bank (1791) ........ 12
Grant S. Nelson & Robert J. Pushaw, Jr.,
Rethinking the Commerce Clause: Applying
First Principles to Uphold Federal Commercial
Regulations but Preserve State Control over
Social Issues, 85 Iowa L. Rev. 1 (1999) ................... 6
Jonathan Elliot, ed., 2 The Debates in the Several
State Conventions on the Adoption of the Federal
Constitution
(Taylor & Maury 2d ed. 1863) ..................... 8, 14, 15
Nathan Bailey, An Universal Etymological English
Dictionary (Neill 26th ed. 1789) .............................. 7
Randy Barnett, The Original Meaning of the
Necessary and Proper Clause,
6 U. Pa. J. Const. L. 183 (2003) ..................... passim
Randy E. Barnett, Commandeering the People:
Why the Individual Health Insurance Mandate
Is Unconstitutional,
5 N.Y.U. J.L. & Liberty 581 (2011) ....................... 20

v
Randy E. Barnett, Jack Balkin’s Interaction Theory
of “Commerce”, 2012 U. Ill. L. Rev. 623 (2012) ....... 6
Randy E. Barnett, New Evidence of the Original
Meaning of the Commerce Clause,
55 Ark. L. Rev. 847 (2003) ....................................... 8
Samuel Johnson, 1 A Dictionary of the English
Language (W. Strahan 4th ed. 1773) ...................... 7
Stephen Gardbaum, Rethinking Constitutional
Federalism, 74 Tex. L. Rev. 795 (1996) ................. 11
T. Sheridan, A Complete Dictionary of the English
Language (W. Young, Mills & Son 6th ed. 1796) .... 7
Thomas Jefferson, Opinion on the Constitutionality
of a National Bank (1791) ...................................... 14
Walton H. Hamilton & Douglass Adair,
The Power to Govern: The Constitution—
Then and Now (1937) ............................................... 9

1
INTEREST OF AMICUS CURIAE 1
The Cato Institute is a nonpartisan public policy
research foundation dedicated to advancing individual
liberty and free markets. Cato’s Robert A. Levy Center
for Constitutional Studies promotes the principles of
limited constitutional government that are the
foundation of liberty. Cato publishes books and
studies, conducts conferences, and produces the
annual Cato Supreme Court Review.
The National Right to Work Legal Defense
Foundation has been the nation’s leading litigation
advocate for employee free choice since 1968. To
advance this mission, Foundation attorneys have
represented private-sector employees in several cases
before this Court, and currently represent employees
whose free choice to refrain from unionization and
collective bargaining is regulated by federal statutes
enacted under the Commerce and Necessary and
Proper Clauses.
Randy E. Barnett is the Patrick Hotung
Professor of Constitutional Law at the Georgetown
University
Law
Center,
and
director
of
the Georgetown Center for the Constitution.
This case concerns amici because it raises the
question of the limits on the federal government’s
power under the doctrine of enumerated powers,
which is foundational to our constitutional structure.

Rule 37 statement: All parties were timely notified and
consented to the filing of this brief. No part of this brief was
authored by any party’s counsel, and no person or entity other
than amici funded its preparation or submission.
1

2
SUMMARY OF ARGUMENT
Congress’s attempt to ban cockfighting in Puerto
Rico goes beyond the furthest limits of its power under
the Commerce and Necessary and Proper Clauses. As
a noneconomic, intrastate activity, it is neither
necessary nor proper for Congress to reach
cockfighting as a method of “carrying into execution”
its power to regulate interstate commerce. 2
Modern Commerce Clause analysis falters when it
divorces itself from the original understanding of the
clause. Historical sources help illuminate the scope of
the commerce power, by which the federal government
may govern actual interstate commerce and those
things necessary and proper to regulating interstate
commerce. Absent from this grant of power is the
ability to control or prohibit purely intrastate activity
that is not participating in interstate commerce.
Erroneous reliance on a “substantial effects” test
that disregards any need for a commodity to be part of
interstate trade has transformed the commerce power
into a rubber stamp for all congressional legislation.
For more than a century, Congress demonstrated an
understanding that it could not pass legislation
restricting purely local trade even if it affected
interstate commerce in the aggregate. Yet, when this
Court was presented with challenges to New Deal
legislation, it determined that Congress possessed
more power than was understood at ratification.
Often conceived as a Commerce Clause doctrine,
the substantial effects test actually derives from the
This brief will use the term “intrastate,” even though Puerto
Rico is not a state.
2

3
Necessary and Proper Clause when it is applied to the
power to regulate commerce. But that clause’s grant of
discretion to “carry into execution” an enumerated
power does not imply a ratchet culminating in
unlimited federal power—a “national problems”
power. Instead, the Necessary and Proper Clause both
augments and limits Congress’s regulatory authority.
For this reason, the Court has adopted limits on the
substantial effects test. In particular, it has said that
Congress may only reach intrastate commerce that is
“economic” in nature. The economic-noneconomic
distinction limits the substantial effects doctrine,
thereby providing a judicially administrable limit on
the “necessary” requirement of the Necessary and
Proper Clause. Federal laws regulating local economic
activity are sometimes necessary to regulate interstate
commerce. But laws regulating wholly intrastate noneconomic activity are likely to be remote from
regulating interstate commerce. See Gonzalez v.
Raich, 545 U.S. 1, 35–36 (2005) (Scalia, J., concurring).
The Court has also sanctioned federal regulation of
local activity that is part of a comprehensive
regulatory scheme, even if that activity is not economic
nor substantially affects interstate commerce. But
under this doctrine, the law must be an essential part
of a broader scheme to regulate interstate commerce.
For example, the Court has held that neither gun
possession within 1,000 feet of a school nor engaging
in gender-motivated violence are economic in nature;
nor is their regulation an essential part of a broader
regulation of interstate commerce. Both laws thus
exceeded congressional power under the “necessary”
part of the Necessary and Proper Clause.

4
Amici believe that both doctrines have extended
Congress’s power beyond the Commerce and
Necessary and Proper Clauses’ original meaning and
should be rejected by the Court. But despite these
overly expansive doctrines, this Court has always
insisted that Congress’s regulatory power has limits.
Here, the Court should act to preserve and enforce
these limits. If the Court will not revisit the
substantial effects test, it should grant certiorari to
hold explicitly that this test does not allow Congress to
reach intrastate activity with no relation to any
fungible commodity in an interstate market.
ARGUMENT
I. THE COURT’S REVIEW IS WARRANTED TO
RESTORE PROPER LIMITS TO THE
COMMERCE CLAUSE THAT HAVE BEEN
REMOVED
BY
THE
SUBSTANTIAL
EFFECTS TEST
It’s difficult, but not impossible, to determine the
meaning of a word or phrase as it was commonly
understood over two hundred years ago. With careful
analysis, however, the original public meaning of the
Commerce Clause can be generally discerned.
Evidence from the text, historical dictionaries,
contemporaneous speeches and writings, and judicial
interpretation confirm that Congress’s jurisdiction
under the Commerce Clause was meant to be far more
limited than its current doctrine allows.
Clarifying the Commerce Clause’s original
meaning is a vital task that only this Court can
undertake. Inferior courts are bound by vertical stare
decisis in ways this Court is not. Properly viewed

5
through its original meaning, the Commerce Clause
gives Congress the power to stipulate how the
exchange or transportation of people and things
between states may be conducted. But restoring the
clause’s original meaning must be done together with
restoring the original meaning of the Necessary and
Proper Clause because those clauses always work in
tandem. Historical evidence shows that the Necessary
and Proper Clause demands a narrower interpretation
than current doctrine allows. To be both necessary and
proper, a law should be evaluated to ensure that
(1) there is a means-ends fit; “(2) the means chosen do
not prohibit the rightful exercise of freedom (or violate
principles of federalism or separation of powers); and
(3) Congress’s claim to be pursuing an enumerated end
is not a pretext for pursuing other ends and not
delegated to it.” Randy Barnett, The Original Meaning
of the Necessary and Proper Clause, 6 U. Pa. J. Const.
L. 183, 221 (2003) [hereinafter Barnett, Necessary and
Proper].
With those limitations in mind, the commerceregulation power delegated to Congress through the
Commerce and Necessary and Proper Clauses should
be more restricted than the modern substantial effects
test allows. Currently, the notion of commerce has
expanded beyond its original understanding while the
Necessary and Proper Clause has been distorted to act
as a perpetual green light to congressional deference.
The argument now is, essentially, “in order to have
effective power over commerce, it is necessary and
proper for Congress to have power over everything,”
and that cannot be what the Constitution allows.

6
A. The Original Meaning of the Commerce
Clause Was Far Narrower Than Current
Doctrine
1. “Commerce” was originally understood as
confined to trade.
Modern interpretations of “commerce” mistake the
desires of some Framers for a government powerful
enough to control all aspects of the national economy
as evidence that the term “commerce” reflects that
aspiration. See Grant S. Nelson & Robert J. Pushaw,
Jr., Rethinking the Commerce Clause: Applying First
Principles to Uphold Federal Commercial Regulations
but Preserve State Control over Social Issues, 85 Iowa
L. Rev. 1 (1999). Clashes of objectives among the
ratifiers certainly existed, and opposing sides
promoted their preferred meaning, but the records of
the Constitution’s drafting and ratification reveal no
examples of an unambiguous use of “commerce” in a
broad sense. See Randy E. Barnett, The Original
Meaning of the Commerce Clause, 68 U. Chi. L. Rev.
112 (2001) [hereinafter Barnett, Commerce].
“Commerce” referred then to the activity of trading
and transporting items, including goods and persons.
It was not an umbrella term that encompassed the
distinct activities of manufacturing and agriculture.
These other activities produced items that could then
be the subject of commerce. The term “commerce” was
not broad enough to embrace all gainful activity—that
is, activity entered into for gain. Neither was it broad
enough to encompass all social “interaction.” See
Randy E. Barnett, Jack Balkin’s Interaction Theory of
“Commerce”, 2012 U. Ill. L. Rev. 623 (2012).
We first look to the text. Congress has power “[t]o

7
regulate Commerce with foreign Nations, and among
the several States, and with the Indian Tribes.” U.S.
Const. art. 1, § 8, cl. 3. At the time of the Founding,
contemporaneous
dictionaries
illuminate
that
“‘commerce’ consisted of selling, buying, and bartering,
as well as transporting for these purposes.” Lopez, 514
U.S, at 585 (Thomas, J., concurring). See also Samuel
Johnson, 1 A Dictionary of the English Language 361
(W. Strahan 4th ed. 1773) (defining commerce as
“Intercour[s]e; exchange of one thing for another;
interchange of any thing; trade; traffick”); Nathan
Bailey, An Universal Etymological English Dictionary
(Neill 26th ed. 1789) (“trade or traffic”); T. Sheridan, A
Complete Dictionary of the English Language 585–86
(W. Young, Mills & Son 6th ed. 1796) (“Exchange of
one thing for another; trade, traffick”).
Given the broad agreement on the meaning of
“commerce,” it is no surprise that countless examples
of “commerce” from the drafting and ratification
process coincide with the narrower concept of trade:
In Madison’s notes for the Constitutional
Convention, the term “commerce”
appears thirty-four times in the speeches
of the delegates. Eight of these are
unambiguous references to commerce
with foreign nations which can only
consist of trade. In every other instance,
the terms “trade” or "exchange” could be
substituted for the term “commerce” with
the apparent meaning of the statement
preserved. In no instance is the term
“commerce” clearly used to refer to “any
gainful activity” or anything broader
than trade.

8
Barnett, Commerce, at 114–15. This view was not
espoused by Madison alone, but rather was seen
across several state ratification conventions,
suggesting that the general citizenry understood
“commerce” to be restricted to trade or exchange.
At the Massachusetts convention, for example,
Thomas Dawes distinguished agriculture, commerce,
and manufacturing from each other as he expounded
on the beneficial effect the Constitution would have on
each. See Jonathan Elliot, ed., 2 The Debates in the
Several State Conventions on the Adoption of the
Federal Constitution 57 (Taylor & Maury 2d ed. 1863)
[hereinafter Debates]. During his discussion of
“commerce” he referred to “our own domestic traffic
that passes from state to state.” Id. at 58.
In the North Carolina debates, William Davie
defined the “general objects of the union” to be “1st, to
protect us against foreign invasion; 2d, to defend us
against internal commotions and insurrections; 3d, to
promote
the
commerce,
agriculture,
and
manufactures, of America.” Id. at 17. Likewise, at the
South Carolina convention, Charles Pinckney, who
was also an influential participant in the
Constitutional Convention, distinguished between
those “people [who] are employed in cultivating their
own lands” and “the rest [who are] in handicraft and
commerce.” Id. at 321. Similar examples showing the
narrow use of “commerce” are seen in the Connecticut,
New York, Pennsylvania, and Virginia conventions.
See Barnett, Commerce, at 116–22. See also Randy E.
Barnett, New Evidence of the Original Meaning of the
Commerce Clause, 55 Ark. L. Rev. 847 (2003)
(surveying 1,594 uses of “commerce” in the
Pennsylvania Gazette from 1728 to 1800).

9
In the Progressive Era, the Court routinely rejected
attempts to expand “commerce” to cover any gainful
activity by distinguishing between commerce and the
productive
activities
of
manufacturing
and
agriculture. In United States v. E.C. Knight Co., Chief
Justice Melville Fuller wrote: “Commerce succeeds to
manufacture, and is not a part of it . . . . The fact that
an article is manufactured for export to another State
does not of itself make it an article of interstate
commerce.” 156 U.S. 1, 13 (1895). Even four decades
later the Court still made a point to emphasize the
difference between “commerce” and other gainful
activity. In Carter v. Carter Coal Co., Justice George
Sutherland explained that “[m]ining brings the subject
matter of commerce into existence. Commerce disposes
of it.” 298 U.S. 238, 298 (1936) (ruling that Congress
could not regulate the conditions under which coal is
produced before it became an article of commerce).
While providing a check on Congress’s power, the
Court saw attacks on its credibility by those in the
political and academic communities who wanted to
expand national control of the economy and a living
Constitution. See Walton H. Hamilton & Douglass
Adair, The Power to Govern: The Constitution—Then
and Now 184–94 (1937). But attacks on adhering to
the text’s original meaning, which continue today, are
no reason to perpetuate overly broad definitions
contrary to historical evidence.
2. “Among the several states” originally meant
“between people of different states.”
A textual analysis of the phrase “among the several
States” provides convincing evidence that the original
public meaning was “between people of different

10
states.” If this phrase was intended to capture
commerce that occurred wholly between people in the
same state, the Commerce Clause would encompass
all commerce and the phrase “among the several
States” would be superfluous. As Chief Justice
Marshall affirmed in Gibbons v. Ogden, the
enumeration in the Commerce Clause of three distinct
commerce powers “presupposes something not
enumerated, and that something, if we regard the
language or the subject of the sentence, must be the
exclusively internal commerce of a State.” 22 U.S. 1,
195 (1824). Ultimately, the only reason to include the
phrase “among the several States” would be limit the
type of commerce Congress controls.
Strong scholarly consensus also promotes this
narrow interpretation. “Consistent with the scheme of
federalism that motivated the granting of a power to
regulate commerce among the states to Congress,
trade that occurs wholly within a state was not
commerce ‘among the states’ and, therefore, the
regulation of such commerce was not among the
powers of Congress.” Barnett, Commerce, at 135. See
also, Nelson & Pushaw, supra, at 42–49 (discussing
deficiencies
in
William
Crosskey’s
broad
interpretation of “among the several States” and
concluding: “Although Crosskey’s interpretation is
defensible, he did not marshal evidence strong enough
to overcome the presumption that the regulation of
commerce, like all federal power, does not extend
purely to internal state affairs.”).
Similarly, St. George Tucker, one of the earliest
scholars on the Constitution, explained: “The
constitution of the United States does not authorise
congress to regulate, or in any manner to interfere

11
with, the domestic commerce of any state.”
“Appendix,” in 1 William Blackstone, Commentaries:
With Notes of Reference to the Constitution and Laws
of the Federal Government of the United States and of
the Commonwealth of Virginia 250 (William Young
Birch & Abraham Small, eds., 1803) (1765).
Even though Congress currently enjoys a vast
reach, it is still a body whose powers are enumerated.
An expanded reading of “among the several States”
would erode state sovereignty over its internal affairs.
This Court serves as the check on that abuse of power.
When it can identify judicially administrable limits on
these powers, it has and should continue to do so.
B. The Necessary and Proper Clause Places
Meaningful and Judicially Enforceable
Limits on Congressional Power
To determine the constitutionality of legislation
justified under the Commerce Clause, courts must also
take into account the Necessary and Proper Clause.
The latter clause was, after all, the power through
which the Court “upheld various federal enactments
as necessary and proper to achieve the legitimate
objective of regulating interstate commerce.” Stephen
Gardbaum, Rethinking Constitutional Federalism, 74
Tex. L. Rev. 795, 808 (1996).
While the Commerce Clause gives Congress power
over “commerce,” the Necessary and Proper Clause
gives Congress power over anything necessary and
proper to regulate commerce. Without an appropriate
understanding of what “necessary” and “proper” mean,
the scope of power given by the clause threatens to
undermine the entire scheme of enumerated powers.

12
1. The original meaning of “necessary” falls
between “convenient” and “indispensably
necessary.”
Not long after the Constitution’s ratification,
Congress became engulfed in a fiercely contested
constitutional conflict: was a national bank
constitutional under the Necessary and Proper
Clause? The conventional academic wisdom is that two
competing theories about the meaning of “necessary”
emerged. One side believed “necessary” really meant
necessary while the opposing viewpoint claimed
“necessary” was closer to “convenient.” These positions
created a false dichotomy when the actual meaning of
“necessary” is most likely found between the two.
The Founder with the most capacious reading of
this clause was Alexander Hamilton. In his opinion to
President Washington on the national bank as
Treasury Secretary, Hamilton insisted that “[t]he
degree in which a measure is necessary, can never be
a test of the legal right to adopt it; that must be a
matter of opinion, and can only be a test of
expediency.” Alexander Hamilton, Opinion on the
Constitutionality of a National Bank (1791),
https://bit.ly/3xFUasi. He then offered the following
test: “The relation between the measure and the end;
between the nature of the mean employed toward the
execution of a power, and the object of that power must
be the criterion of constitutionality, not the more or
less of necessity or utility.” Id. (emphases added.)
Today we would call this the requirement of meansend fit. An appropriate “end” or “object”—we would say
“objective” or “purpose”—must be identified and the
measure being adopted as “the means” must be closely
enough related to that end.

13
Hamilton’s “test of the legal right” of Congress to
pass a law is not the clause’s original meaning. It is
what modern originalists call a “constitutional
construction” by which that meaning is effected. See
Lawrence B. Solum, The Interpretation-Construction
Distinction, 27 Const. Comment. 95 (2010).
Hamilton’s was not the only such test proposed
after the Constitution was adopted. In a speech to the
House, Representative James Madison offered his:
“Whatever meaning this clause may have, none can be
admitted that would give an unlimited discretion to
Congress. Its meaning must, according to the natural
and obvious force of the terms and the context, be
limited to means necessary to the end and incident to
the nature of the specified powers.” Madison contended
that “[t]he essential characteristic of the government,
as composed of limited and enumerated powers, would
be destroyed: If instead of direct and incidental means,
any means could be used.” 1 Annals of Congress 1947–
48 (Joseph Gales, ed., 1791) (emphases added.)
Despite sharply disagreeing about the constitutionality of a national bank, there is not much daylight
between Hamilton’s and Madison’s tests of whether a
law is “necessary” and therefore within the power of
Congress to enact. Their dispute largely turned on a
factual disagreement about whether the bank was or
was not closely enough related to (Hamilton) or
incident to (Madison) an enumerated power. Both
Hamilton explicitly, and Madison implicitly, rejected
Secretary of State Thomas Jefferson’s more stringent
view that “the Constitution restrained [Congress] to
the necessary means, that is to say, to those means
without which the grant of power would be nugatory.”
Thomas Jefferson, Opinion on the Constitutionality of

14
a National Bank (1791), https://bit.ly/3eiky3O.
Hamilton’s lengthy response to this test in his bank
opinion, noted above, was telling.
Madison explained that the clause’s words should
be “understood so as to permit the adoption of
measures the best calculated to attain the ends of
government, and produce the greatest quantum of
public utility.” Debates, supra, at 417. He reasoned
that, “[i]n the Constitution, the great ends of
government were particularly enumerated; but all the
means were not, nor could they all be, pointed out,
without making the Constitution a complete code of
laws: some discretionary power, and reasonable
latitude, must be left to the judgment of the
legislature.” Id.
Parsing out where “necessary” falls in between
indispensably necessary and convenience, is aided by
the justiciability of the Necessary and Proper Clause
as well as textual support. If “necessary” aligned with
the broader interpretation of convenience, the term
would be little more than a rubber stamp for Congress
in the guise of a constitutional standard. Conversely,
if “necessary” meant that a law must be “incidental
and closely connected to an enumerated power, then
this is a matter of constitutional principle and within
the purview of the Courts to assess.” Barnett,
Necessary and Proper, at 206–07.
Like all limits on congressional power, the
Necessary and Proper Clause must be judicially
enforced by the adoption of judicially administrable
doctrines. The text of the clause says that laws “shall
be necessary and proper.” (emphasis added). In the
legal field, “shall” is almost always a mandatory

15
command. When a law intends to create discretion
instead of a command, it uses the word “may.”
The authors of the Constitution were
very careful to use “shall” and “may”
properly. This strongly suggest that the
injunction, “to make all laws which shall
be necessary and proper,” was not
discretionary on the part of the lawmaking authority to whom it is
directed—Congress. It is mandatory, and
like all other mandatory provisions, is
presumptively enforceable by the other
branches of government, including the
courts.
Barnett, Necessary and Proper, at 209.
Legislator George Nicholas commented at the
Virginia ratification convention that the extent of the
clause’s power would be determined by “the same
power which, in all well-regulated communities,
determines the extent of legislative powers. If they
exceed these powers, the judiciary will declare it void,
or else the people will have a right to declare it void.”
Debates, supra, at 443.
Madison likewise raised the justiciability issue in a
speech to Congress on the National Bank: “[W]e are
told, for our comfort, that the Judges will rectify our
mistakes. How are the Judges to determine in the case;
are they to be guided in their decisions by the rules of
expediency?” Joseph Gales, supra, at 2010. According
to both Hamilton and Madison, a means-ends fit must
exist. The Court reflected that idea in its McCulloch v.
Maryland formulation: “Let the end be legitimate, let
it be within the scope of the constitution, and all means

16
which are appropriate, which are plainly adapted to
that end, which are not prohibited, but consist with the
letter and spirit of the constitution, are
constitutional.” 17 U.S. 316, 421 (1819).
2. “Proper” was originally a jurisdictional test.
While “necessary” highlights the intertwined
relationship a law must have with an enumerated
power for Congress to legislate on an issue, the term
“proper” poses a jurisdictional limit on Congress’s
power. “The propriety of jurisdiction is determined in
at least three ways: (1) according to principles of
separation of powers, (2) according to principles of
federalism, and (3) according to the background rights
retained by the people.” Barnett, Necessary and
Proper, at 217. Thus, if a law is found “necessary,” but
violates separation of powers, federalism, or
background rights retained by the people, it will still
be “improper,” and unconstitutional. See Nat’l Fed’n of
Indep. Bus. v. Sebelius, 567 U.S. 519, 560 (2012)
(“Even if the individual mandate is ‘necessary’ to the
Act’s insurance reforms, such an expansion of federal
power is not a ‘proper’ means for making those reforms
effective.”).
While explaining his proposed amendments to the
Constitution that became the Bill of Rights, Madison
offered an example of a necessary law that could still
be improper. He posited that the federal government
has the power to pass laws necessary to collect its
revenue and, if the means for enforcing that collection
were within the discretion of the legislature, one could
imagine that serving general warrants on the public
could be considered necessary to do so. See 1 Annals of
Congress 456 (Joseph Gales, ed., 1789). General

17
warrants would still be considered improper and
unconstitutional, however—even if necessary—
because they would violate a person’s right against
unreasonable searches and seizures.
St. George Tucker offered another example of how
Congress is constrained to using only necessary means
that are also proper:
If, for example, congress were to pass a
law prohibiting any person from bearing
arms, as a means of preventing
insurrections, the judicial courts, under
the construction of the words necessary
and proper, here contended for, would be
able to pronounce decidedly upon the
constitutionality of these means…. [I]f
Congress may use any means, which they
choose to adopt, the provision in the
constitution which secures to the people
the right of bearing arms, is a mere
nullity…because in that case, no court
could have any power to pronounce on the
necessity or propriety of the means
adopted by congress to carry any
specified power into complete effect.
St. George Tucker, supra, at 289. Without being
limited by propriety, Congress would have the power
to use any means necessary to accomplish an
enumerated end, even if it invaded rights retained by
the people such as the right to keep and bear arms.
This potential abuse of power shows why
“Congress cannot be the sole judge of whether it is
acting within its powers… [which] would give it license
to pursue objects or ends that are beyond its powers.”

18
Barnett, Necessary and Proper, at 220. All acts of
Congress must originate from one of its enumerated
powers, but that is not where the analysis ends. The
meaning attached to the Necessary and Proper Clause
“not only determines the scope of congressional
power—it determines the degree of deference that
courts owe a congressional judgment that is acting
within its powers.” Id.
In his concurring opinion in Gonzales v. Raich,
Justice Scalia correctly located in the Necessary and
Proper Clause both the substantial effects and
essential to a broader regulatory scheme doctrines
(while adopting an overly deferential approach to the
latter doctrine). Raich, 545 U.S. at 33–38 (Scalia, J.,
concurring). It is therefore imperative that this Court
continue to clarify the importance of the Necessary
and Proper Clause in reviewing all federal legislation
and articulate the limits of the clause’s meaning to
preserve the original scheme of limited and
enumerated congressional power.
II. PROHIBITING
COCKFIGHTING,
AN
INTRASTATE
ACTIVITY
WITH
NO
RELATION TO ANY INTERSTATE MARKET,
EXCEEDS
THE
SCOPE
OF
THE
NECESSARY AND PROPER CLAUSE
A. The “Substantial Effects” Doctrine Applies
the Necessary and Proper Clause to the
Commerce Clause and Allows Congress to
Use Its Regulatory Authority While
Cabining that Authority
Since the New Deal, the Court has asked whether
a particular “economic activity substantially affects
interstate commerce” when considering whether

19
Congress can regulate it. Raich, 545 U.S. at 25. The
New Deal cases that first developed the “substantial
effects” doctrine, however, found the authority for that
doctrine not in the Commerce Clause itself, but in its
execution via the Necessary and Proper Clause.
Although often described as expanding the
definition of the word “commerce,” these cases show
that the New Deal Court actually asked whether
federal regulation of the activity was a necessary and
proper means of exercising the regulatory power,
because the activity substantially affects that
commerce. “Congress’s regulatory authority over
intrastate activities that are not themselves part of
interstate commerce (including activities that have a
substantial effect on interstate commerce) derives from
the Necessary and Proper Clause.” Id. at 34 (Scalia, J.,
concurring) (citing United States v. Coombs, 37 U.S. 72,
78 (1838); Katzenbach v. McClung, 379 U.S. 294, 301–
02 (1964); United States v. Wrightwood Dairy Co., 315
U.S. 110, 119 (1942); Shreveport Rate Cases, 234 U.S.
342, 353 (1914); E. C. Knight Co., 156 U.S. at 39–40
(Harlan, J., dissenting)). Congress has never been
allowed to go further.
In United States v. Darby, 312 U.S. 100 (1941), for
example, the Court considered Congress’s power to
“prohibit the employment of workmen in the
production of goods ‘for interstate commerce’ at other
than prescribed wages and hours.” Id. at 108. Instead
of stretching the definition of “commerce,” the Court
focused on how federal power “extends to those
activities intrastate which so affect interstate
commerce or the exercise of the power of Congress over
it as to make regulation of them appropriate.” Id. at
118. The authorities cited for this proposition did not

20
come from Gibbons v. Ogden—the foundational
Commerce Clause case cited elsewhere in Darby—but
from McCulloch, the seminal Necessary and Proper
Clause case.
A year later in Wickard v. Filburn, the Court used
the same reasoning: not redefining “commerce,” but
ruling that the challenged measures were necessary
and proper for regulating commerce. 317 U.S. 111
(1942). Like Darby, Wickard explicitly relied on the
Necessary and Proper Clause, citing McCulloch. Id. at
130 n.29. Wickard did not expand the Commerce
Clause itself to allow Congress power to regulate
intrastate
activity
that,
when
aggregated,
substantially affects interstate commerce. Instead,
“like Darby, Wickard is both a Commerce Clause and a
Necessary and Proper Clause case[,]” with the
substantial effects doctrine reaching Roscoe Filburn’s
wheat growing via the Necessary and Proper Clause.
Randy E. Barnett, Commandeering the People: Why the
Individual
Health
Insurance
Mandate
Is
Unconstitutional, 5 N.Y.U. J.L. & Liberty 581, 594
(2011). Thus, the aggregation principle can only apply
to economic activities the regulation of which is
necessary and proper to effecting Congress’s
enumerated power to regulate commerce.
Accordingly, the Court in United States v. Lopez
found that aggregation could apply only to economic
activity: “Even Wickard, which is perhaps the most farreaching example of Commerce Clause authority over
intrastate activity, involved economic activity in a way
that possession of a gun in a school zone does not.” 514
U.S. 549, 560 (1995). And in United States v. Morrison,
the Court held that gender-motivated violence is not
economic activity and thus that the substantial effects

21
doctrine was inapplicable. 529 U.S. 598, 613 (2000).
The Court thus clarified the substantial effects
doctrine by setting the regulation of intrastate
economic activity (in certain contexts) as the absolute
limit of federal power under the Commerce and
Necessary and Proper Clauses. “Where economic
activity substantially affects interstate commerce,
legislation regulating that activity will be sustained.”
Lopez, 514 U.S. at 560.
Conversely, non-economic activity cannot be
regulated merely because it affects interstate
commerce through a “casual chain,” or has, in the
aggregate, “substantial effects on employment,
production, transit, or consumption.” Morrison, 529
U.S. at 599.
Adopting a distinction between economic and
noneconomic activity allowed the Court to determine
whether legislation is “necessary” under the Necessary
and Proper Clause without involving it in complex,
potentially insoluble evaluations of the “more or less of
necessity or utility” of the challenged law. Hamilton,
Opinion on the Constitutionality of a National Bank,
supra. By limiting the substantial effects doctrine to
economic activities, Lopez and Morrison preserved the
constitutional scheme of limited and enumerated
powers, drawing a judicially administrable line beyond
which Congress cannot go when choosing “necessary”
means to execute its authority.
But if regulating intrastate economic activity can be
a “necessary” means of regulating interstate
commerce, as that term is understood in the Necessary
and Proper Clause, the obvious corollary is that
regulating
non-economic
activity
cannot
be

22
“necessary,” regardless of its economic effects.
This Court’s precedents are clear: Congress may
reach non-commerce under its power to regulate
interstate commerce only via the Necessary and Proper
Clause, and this executory power is categorically
limited—indeed must be categorically limited to be
judicially administrable—to the qualitatively distinct
class of economic activity (as well as activity that is
essential to regulating interstate commerce as part of
a comprehensive regulatory scheme). In other words,
Congress’s regulatory authority extends only to certain
types of activity, rather than to any activity that passes
some threshold degree of effect on interstate commerce.
The latter fact-based line would not be judicially
administrable, would undermine the principle of
enumerated powers, and would involve courts in
economic balancing and speculation beyond their ken.
B. As an Intrastate, Noneconomic Activity,
Cockfighting Is Not Regulatable by the
Commerce Clause through the Necessary
and Proper Clause.
1. Cockfighting does not traditionally qualify
for regulation under the Commerce Clause.
Based on its original meaning, the Commerce
Clause grants Congress the power to stipulate in what
way the exchange or movement of items between
persons of one state and another may be conducted. In
this instance, there has been no exchange or
movement of goods between persons of one state and
another. It was Congress itself that passed legislation
restricting cockfighting to the boundaries of Puerto
Rico assuring that there would be no interstate trade.

23
Under the Animal Welfare Act, which
was enacted pursuant to the Commerce
Clause, Congress did not punish
intrastate cockfighting in any “State”
(which was defined to include Puerto
Rico) where the practice was legal. In
these jurisdictions, cockfighting violated
federal law only “if the person knew that
any bird in the fighting venture was
knowingly bought, sold, delivered,
transported, or received in interstate or
foreign commerce for the purpose of
participation in the fighting venture.” 7
U.S.C. §2156(a)(2).
Pet. Br. at 3.
The Court should take this opportunity to repair
the damage caused by a misreading of the Commerce
Clause. Cockfighting that takes place wholly in Puerto
Rico would not qualify as regulatable under the
Commerce Clause because at no point in time does it
involve interstate exchange.
2. Even under the substantial effects test,
Congress cannot reach wholly intrastate,
noneconomic activities with no relation to
any fungible commodity in interstate trade.
Previous commerce power case law undeniably
involves instances of economic policy in a way
cockfighting does not. Primarily, cockfighting cannot
be properly categorized as “economic” activity. As
described in Gonzales v. Raich: “economics” in a
Commerce Clause analysis may refer to “the
production, distribution, and consumption of
commodities” in an “interstate market.” 545 U.S. at 26.

24
The necessity for an interstate market is repeatedly
seen across multiple Commerce Clause cases. In
Wickard, the Court observed an interplay between a
purely local activity of growing wheat and a broader
regulation of the national market price for wheat. In
Darby, the Court associated a workforce in Georgia
with the country-wide workforce. In Raich, the Court
relied on Congress’s attempt to regulate the national
market for marijuana.
It would stand to reason that, to fall under the
purview of the “substantial effects” test, the intrastate
use of a commodity must substantially affect a
national market of the same commodity that Congress
seeks to regulate. In defiance of that commonsense
meaning, however, the First Circuit tossed aside any
meaningful restrictions to the Commerce Clause when
it held that cockfighting with no national market may
still be criminalized.
If the Necessary and Proper Clause allows the
Commerce Clause to reach any wholly intrastate
activity with no national market to disrupt or “affect,”
it is hard to comprehend what activity it could not
reach. The Commerce Clause still grants an
enumerated power, and it is imperative that this Court
outline the limits of the Necessary and Proper Clause
in regulating non-commerce. The unabashed
expansion of an already overly broad interpretation of
congressional power would strip states of any
meaningful choice regulating their purely internal
trade. Accordingly, correcting the First Circuit’s error
would not only start down the path of proper
commerce-power jurisprudence but would preserve
the delicate balance of federalism on which our
Republic was founded.

25
CONCLUSION
The Court should grant certiorari to articulate a
judicially administrable standard restricting Congress
to regulating actual interstate commerce along with
activities that are demonstrably necessary to carry out
such regulation. That standard would allow states and
Puerto Rico to adopt regulatory schemes reflecting a
range of policies affecting the daily lives of their
citizenry. One size does not fit all. The Court must act
to deny the legitimacy of a “national problems power.”
Respectfully submitted,
Raymond L. LaJeunesse, Jr.
Frank D. Garrison
NATIONAL RIGHT TO WORK
LEGAL DEFENSE FOUND.
8001 Braddock Rd., Ste 600
Springfield, VA 22160
(703) 321-8510
rjl@nrtw.org
RANDY BARNETT
GEORGETOWN U. LAW CTR.
600 N.J. Ave. NW
Washington, DC 20001
(202) 662-9936
rb325@law.georgetown.edu

Ilya Shapiro
Counsel of Record
Trevor Burrus
Stacy Hanson
CATO INSTITUTE
1000 Mass. Ave., NW
Washington, DC 20001
(202) 842-0200
ishapiro@cato.org

July 15, 2021

